January 5, 2021

Scott P. Martin
SMartin@perkinscoie.com
D. +1.206.359.3600
F. +1.206.359.4600

Scott S. Harris, Esq.
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Servotronics, Inc. v. Rolls-Royce PLC et al., No. 20-794

Dear Mr. Harris:
I am counsel of record for respondent The Boeing Company in the above-captioned case. I write
in response to the January 4, 2021 letter from petitioner Servotronics, Inc., requesting that Boeing’s
motion for an extension of time for all respondents to file any brief in opposition be referred to a
Justice.
The petition for a writ of certiorari was filed on December 7, 2020 and docketed on December 11,
2020; absent an extension, any brief in opposition—as well as any amicus curiae briefs in support
of the petition—would be due on January 11, 2021. On December 31, 2020, Boeing requested a
30-day extension of time, to and including February 10, 2010, after receiving notice from an amicus curiae of its intention to file an amicus brief in support of petitioner. Boeing subsequently
received notice from an additional amicus curiae of its intention to file an amicus brief in support
of petitioner.
Servotronics opposed the requested extension because, in its view, “Supreme Court Rule 15 provides that respondents may file a ‘brief in opposition to a petition for a writ of certiorari,’ not a
brief responding to every argument that interested third parties may lodge for or against a petition
as amici curiae.’” But, as described in the leading Supreme Court practice guide, this Court’s rules
were amended in 2007 to require petition-stage amici to provide notice of their intention to submit
an amicus brief “‘to allow a responding party to respond to an amicus curiae brief filed on behalf
of the opposing party in the same document and at the same time that a response to the party is
made,’ by ‘seeking an extension of time in order to respond to an amicus curiae brief in a brief in
opposition.’” Stephen M. Shapiro et al., Supreme Court Practice ch. 6:37(b), at 499 (10th ed.
2013) (quoting Clerk’s comment). Boeing followed that approach by requesting an extension here.
Servotronics has asserted that a “speedy ruling on the petition” is necessary given the anticipated
progress of its arbitration with respondent Rolls-Royce PLC. Servotronics has not, however,
sought expedited consideration of its petition; nor did Servotronics even reference the scheduled

Scott S. Harris, Esq.
January 5, 2021
Page 2
arbitration hearing date—May 10, 2021—in the petition as a factor bearing on the suitability of
this case for review by the Court.
Under these circumstances, Boeing does not believe that Servotronics has identified any compelling reason for proceeding in a manner that would preclude Boeing from responding to all amici
in its opposition to the petition. Of course, Boeing will respond to the petition on the schedule
directed by the Court.
Thank you very much for your time and consideration.
Respectfully submitted,

Scott P. Martin
cc:

Stephen R. Stegich III, Esq.
Larry S. Kaplan, Esq.

